Audit Report




OIG-06-016
Audit of the Office of Thrift Supervision’s Fiscal Years
2005 and 2004 Financial Statements


December 13, 2005




Office of
Inspector General
Department of the Treasury
                                        DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              December 13, 2005


            MEMORANDUM FOR JOHN M. REICH, DIRECTOR
                           OFFICE OF THRIFT SUPERVISION

            FROM:                   William H. Pugh,
                                    Deputy Assistant Inspector General
                                     for Financial Management and Information
                                     Technology Audits

            SUBJECT:                Audit of the Office of Thrift Supervision’s Fiscal Years
                                    2005 and 2004 Financial Statements


            I am pleased to transmit the attached audited Office of Thrift Supervision (OTS)
            financial statements for fiscal years 2005 and 2004. We contracted with the
            independent certified public accounting firm Deva & Associates, P.C. (DEVA) to
            audit the financial statements of OTS as of September 30, 2005 and 2004 and for
            the years then ended. The contract required that the audit be performed in
            accordance with generally accepted government auditing standards; applicable
            provisions of Office of Management and Budget Bulletin No. 01-02, Audit
            Requirements for Federal Financial Statements; and the GAO/PCIE Financial Audit
            Manual.

            The following reports, prepared by DEVA, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance with Laws and Regulations.

            In its audit, DEVA found:

                •   that the financial statements were fairly presented, in all material respects, in
                    conformity with accounting principles generally accepted in the United
                    States of America,
                •   no matters involving internal control and its operation that are considered
                    material weaknesses, and
                •   no instances of reportable noncompliance with laws and regulations tested.
In connection with the contract, we reviewed DEVA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. DEVA is responsible for
the attached auditors’ reports dated November 4, 2005 and the conclusions
expressed in the reports. However, our review disclosed no instances where DEVA
did not comply, in all material respects, with generally accepted government
auditing standards.

Should you have any questions, please contact me at (202) 927-5400, or a
member of your staff may contact Mike Fitzgerald, Director, Financial Audits at
(202) 927-5789.

Attachment
     2005
Financial Report




Office of Thrift
 Supervision
                       Table of Contents
                                                          Page


Independent Auditors’ Report …………….….………..…..              1



Financial Statements ………………..………………..….…..                 2



Notes to Financial Statements ……..…………...……….…             5



Independent Auditors’ Report on Internal Control Over 

      Financial Reporting …………………………….….....               16 



Independent Auditors’ Report on Compliance with 

      Laws and Regulations ….………………….…….…..                17 

Deva & Associates, P.C. 

                                                 1901 Research Boulevard • Suite 410 • Rockville, MD 20850
                                                                      (301) 610-5600 • FAX (301) 610-9910




                            INDEPENDENT AUDITORS' REPORT



 To the Inspector General, 

 U.S. Department of the Treasury 


 We have audited the accompanying statements of financial position of the U.S. Department of
 the Treasury, Office of Thrift Supervision (OTS) as of September 30, 2005 and 2004, and the
 related statements of operations and changes in net position, and cash flows for the years then
 ended. These financial statements are the responsibility of OTS’ management. Our
 responsibility is to express an opinion on these financial statements based on our audit.

 We conducted our audits in accordance with auditing standards generally accepted in the United
 States of America; Government Auditing Standards, issued by the Comptroller General of the
 United States; and applicable Office of Management and Budget (OMB) guidance for audits of
 federal financial statements. Those standards and OMB Bulletin 01-02 require that we plan and
 perform the audits to obtain reasonable assurance about whether the financial statements are free
 of material misstatement. An audit includes examining, on a test basis, evidence supporting the
 amounts and disclosures in the financial statements. An audit also includes assessing the
 accounting principles used and significant estimates made by management, as well as evaluating
 the overall financial statement presentation. We believe that our audits provide a reasonable
 basis for our opinion.

 In our opinion, the financial statements referred to above present fairly, in all material respects,
 the financial position of OTS as of September 30, 2005 and 2004, and the results of its
 operations and its cash flows for the years then ended in conformity with accounting principles
 generally accepted in the United States of America.

 In accordance with Government Auditing Standards, we have also issued a report dated
 November 4, 2005, on our consideration of OTS’ internal control over financial reporting and a
 report dated November 4, 2005, on its compliance with laws and regulations. These reports are
 an integral part of an audit performed in accordance with Government Auditing Standards and
 should be read in conjunction with this report in considering the results of our audit.




                                                  Certified Public Accountants

 November 4, 2005


                                                  1
                    UNITED STATES DEPARTMENT OF THE TREASURY

                           OFFICE OF THRIFT SUPERVISION

                        STATEMENTS OF FINANCIAL POSITION

                                    (In thousands)





                                                                            As of September 30
                                                                          2005             2004
Assets

   Cash and cash equivalents (Note 3)                                $    110,238     $    86,407
   Accrued interest receivable                                              1,178           1,076
   Accounts receivable                                                      1,147             365
   Investments held to maturity (Note 4)                                  125,439         110,794
   Property and equipment, net (Note 5)                                    32,929          34,707
   Other assets                                                               869             689

         Total Assets                                                $    271,800     $   234,038

Liabilities and Net Position

Liabilities:

   Accounts payable                                                  $      1,109     $       416
   Accrued annual leave                                                     9,920           9,299
   Workers' compensation liability (Note 6)                                 3,990           4,536
   Deferred compensation liability (Note 7)                                   573             567
   Deferred assessment revenue                                             50,126          42,538
   Deferred rent credit                                                     2,084           2,266
   Post-retirement benefit liability (Note 8)                              14,453          13,535
   Other retirement plan liabilities (Note 9)                              16,142           6,720
   Payroll, benefits, and withholding                                       5,116           4,190
   Other accrued liabilities (Note 10)                                      3,163           4,267

         Total Liabilities                                           $    106,676     $    88,334

Net Position:

   Assumed capital                                                   $     41,037     $    41,037
   Retained earnings                                                      124,087         104,667

         Total Net Position (Note 11)                                $    165,124     $   145,704

         Total Liabilities and Net Position                          $    271,800     $   234,038




   The accompanying notes are an integral part of these financial statements.


                                                2
                  UNITED STATES DEPARTMENT OF THE TREASURY

                         OFFICE OF THRIFT SUPERVISION

             STATEMENTS OF OPERATIONS AND CHANGES IN NET POSITION

                          For the Years Ended September 30

                                    (In thousands)





                                                                              For the Years Ended
                                                                                 September 30
                                                                             2005             2004
Revenues

   Industry assessments                                                 $   187,419      $   164,809
   Examination, application, and security filing fees                         7,533            6,575
   Interest                                                                   5,709            4,192
   Rental income (Note 12)                                                    5,114            4,923
   Other                                                                      1,079            1,267

   Total Revenues                                                       $   206,854      $   181,766

Expenses

   Personnel compensation                                               $    94,498      $    90,067
   Benefits (Note 9)                                                         59,407           52,405
   Rent, communication, and utilities (Note 13)                               6,863            9,474
   Travel and transportation                                                 10,878           10,182
   Services                                                                   4,785            4,980
   Data processing                                                            1,594            2,141
   Building expenditures                                                      4,052            3,959
   Office equipment and software                                              1,694            1,971
   Miscellaneous                                                              1,890            1,782
   Depreciation and amortization                                              1,773            1,753

   Total Expenses                                                       $   187,434      $   178,714

Excess of Revenues over Expenses                                        $    19,420      $     3,052

Net Position, Beginning Balance                                             145,704          142,652

Net Position, Ending Balance                                            $   165,124      $   145,704




     The accompanying notes are an integral part of these financial statements.




                                                        3
                      UNITED STATES DEPARTMENT OF THE TREASURY

                             OFFICE OF THRIFT SUPERVISION

                               STATEMENT OF CASH FLOWS

                              For the Years Ended September 30

                                        (In thousands)





                                                                                For the Years Ended
                                                                                   September 30
                                                                               2005              2004
CASH FLOWS FROM OPERATING ACTIVITIES

Excess of revenues over expenses                                          $     19,420      $    3,052

Adjustments to reconcile excess of revenues over expenses to
 net cash provided by operating activities:
     Amortization of net bond premium                                             214              242
      Depreciation and amortization                                              1,773           1,753
      (Gain)/loss on disposed assets                                                (1)                 6

Changes in assets and liabilities:
     (Increase)/decrease in receivables                                           (884)            358
     Increase in other assets                                                     (180)           (311)
     Increase/(decrease) in accounts payable                                       693            (582)
     Increase in other liabilities                                              17,649          10,852

      Net cash provided by operating activities                           $     38,684      $   15,370

CASH FLOWS FROM INVESTING ACTIVITIES

      Purchases of investments                                            $    (14,859)     $   (45,190)
      Maturities of investments                                                      -           30,000
      Capitalized leasehold improvements                                             4           (1,204)
      Insurance proceeds received                                                    2                -

      Net cash used in investing activities                               $    (14,853)     $   (16,394)

Net cash provided by/(used in) operating and investing activities         $     23,831      $    (1,024)

Cash and cash equivalents, beginning of year                                    86,407          87,431

Cash and cash equivalents, end of year                                    $    110,238      $   86,407




  The accompanying notes are an integral part of these financial statements.



                                                     4
                            UNITED STATES DEPARTMENT OF THE TREASURY
                                   OFFICE OF THRIFT SUPERVISION

                                     NOTES TO FINANCIAL STATEMENTS


1. REPORTING ENTITY

The Office of Thrift Supervision (OTS) was created when the Financial Institutions Reform, Recovery, and
Enforcement Act of 1989 (FIRREA) abolished the Federal Home Loan Bank Board (FHLBB) and transferred all
examination and supervisory activities to OTS under the Department of the Treasury. The primary functions of
OTS are to: (1) charter federal savings and loan associations; (2) adopt regulations governing the operation of the
thrift industry; (3) conduct examinations of federal and state chartered savings institutions and their holding
companies; and (4) supervise compliance with federal laws and regulations and OTS directives, taking measures
needed to enforce such compliance and rehabilitate troubled institutions.

FIRREA provides that OTS assess the institutions it regulates to recapture operating costs. Assessments are
collected semiannually on January 31 and July 31.


2. SIGNIFICANT ACCOUNTING POLICIES

BASIS OF PRESENTATION

OTS has historically prepared its financial statements in accordance with generally accepted accounting principles
based upon accounting standards issued by the Financial Accounting Standards Board (FASB), the private-sector
standards-setting body. In October 1999, the American Institute of Certified Public Accountants designated the
Federal Accounting Standards Advisory Board (FASAB) as the standards-setting body for financial statements of
federal government entities with respect to the establishment of generally accepted accounting principles. FASAB
has indicated, however, that financial statements prepared based upon accounting standards published by the FASB
may also be regarded as being in accordance with generally accepted accounting principles for those federal entities
such as OTS that have issued financial statements based upon FASB accounting standards in the past. Accordingly,
consistent with historical reporting, OTS financial statements are presented in accordance with accounting standards
published by FASB.

CASH AND CASH EQUIVALENTS

Cash and cash equivalents consist of OTS’s account at the Department of the Treasury and funds invested overnight
by Treasury on behalf of OTS.

INVESTMENTS HELD TO MATURITY

Effective January 1, 1994, OTS adopted Statement of Financial Accounting Standards (SFAS) No. 115,
“Accounting for Investments in Certain Debt and Equity Securities.” Under the statement, OTS is required to
classify investment securities under three categories: (1) trading, (2) available for sale, and (3) held to maturity. All
of the agency’s investments consist of Treasury obligations. OTS has the intent and ability to hold these
investments to maturity. Therefore, all investments are classified as held to maturity and are stated at amortized
cost. Certain Treasury securities are purchased at a discount or premium. Premiums and discounts are amortized
over the term of the security using the interest method.




                                                         5

                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS



2. SIGNIFICANT ACCOUNTING POLICIES (continued)

POST-RETIREMENT BENEFITS

OTS provides certain health and life benefits for all retired employees that meet eligibility requirements. Effective
January 1, 1993, OTS adopted SFAS No. 106, “Employers’ Accounting for Postretirement Benefits Other Than
Pensions,” to account for its share of the costs of those benefits. Under this statement, OTS’s share of the estimated
costs that will be paid after retirement is being accrued by charges to expense over the employees’ active service
periods to the dates that they are fully eligible for benefits, except that OTS has elected to amortize the transition
amount (unfunded cost at January 1, 1993) over twenty (20) years beginning in 1993 in accordance with the option
available in the statement. Prior to 1993, OTS expensed its share of the costs as the retirees incurred claims and as
OTS paid premiums. Pursuant to an agreement with the Office of Personnel Management (OPM) in 1994, OTS
agreed to pay a one-time fee to OPM in consideration of OPM assuming the health care portion of the post-
retirement plan liability.

ANNUAL, SICK, AND OTHER LEAVE

Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. The balance in the accrued
annual leave account reflects current pay rates. Sick leave and other types of nonvested leave are charged to
operating costs as taken.

PROPERTY AND EQUIPMENT

Fixed assets acquired by OTS are capitalized at cost. Individual fixed assets in excess of $50 thousand and bulk
purchases in excess of $250 thousand are capitalized. Aggregate purchases of multiple items directly related to a
specific project (for example, leasehold improvements) are capitalized when the total cost exceeds a minimum
threshold of $250 thousand, and the annual amortization amount exceeds $50 thousand. The building owned by
OTS is being depreciated over 50 years. The agency’s capitalized furniture, fixtures and equipment are depreciated
over 3 to 5 years. Depreciation is computed on a straight-line basis.

INCOME TAXES

As an agency of the Department of the Treasury, OTS is exempt from all federal and state taxes based on income.
OTS is also exempt from state and local property and real estate taxes.

RECLASSIFICATIONS

Certain prior year amounts have been reclassified to conform to the fiscal year 2005 presentation.




                                                        6

                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS



3. CASH AND CASH EQUIVALENTS

The following table summarizes the balances of cash and cash equivalents (in thousands):

                                                        September 30
                                                      2005         2004

         Cash                                   $       1,089 $        1,019
         Overnight investment with Treasury           109,149         85,388
         Total cash and cash equivalents        $     110,238 $       86,407

Interest earned on cash and overnight investments totaled $2.0 million and $0.8 million for 2005 and 2004,
respectively.


4. INVESTMENTS HELD TO MATURITY

Investment securities held at September 30, 2005 and 2004 are marketable Treasury securities maturing through
March 2009. The amortized cost and market value of these securities are summarized as follows (in thousands):

                                                                                  September 30
                                                                               2005          2004

         Face value                                                       $     125,000 $       110,000
         Unamortized premium, net of unamortized discount                           439             794

         Book value of investments held to maturity                       $     125,439 $       110,794

         Market value                                                     $     123,091 $       111,038

Effective interest yields range from 2.21 percent to 4.16 percent. Interest earned on these investments totaled $3.7
million and $3.4 million for 2005 and 2004, respectively.




                                                        7

                          UNITED STATES DEPARTMENT OF THE TREASURY
                                 OFFICE OF THRIFT SUPERVISION

                                   NOTES TO FINANCIAL STATEMENTS



5. PROPERTY AND EQUIPMENT

The following table summarizes the fixed asset balances (in thousands):

                                                                                 September 30
                                                                              2005          2004

        Land                                                              $     7,101 $         7,101
        Building                                                               49,188          49,188
        Furniture, fixtures, and equipment                                      3,662           5,623
        Leasehold Improvements                                                  1,852           1,856
         Total cost                                                       $    61,803 $        63,768

        Accumulated depreciation, building                                $   (25,493) $     (24,440)
        Accumulated depreciation, furniture, fixtures, and equipment           (3,021)        (4,401)
        Accumulated amortization, leasehold improvements                         (360)          (220)
         Total accumulated depreciation and amortization                  $   (28,874) $     (29,061)

        Property and equipment, net                                       $     32,929 $       34,707


6. WORKERS’ COMPENSATION LIABILITY

The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to covered federal
civilian employees injured on the job, employees who have incurred a work-related occupational disease, and
beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. Benefit
claims incurred for active and former employees of OTS and its predecessor, the Federal Home Loan Bank Board,
are administered by the U.S. Department of Labor (DOL) and are ultimately paid by OTS. Actuarial estimates of
future workers’ compensation estimates are generated by DOL. The estimated actuarial liability for FECA benefits
includes the expected liability for death, disability, medical, and miscellaneous costs for approved compensation
cases. This method utilizes historical benefit payment patterns related to a specific incurred period to predict the
ultimate payments related to that period. The annual benefit payments have been discounted to present value using
OMB’s economic assumptions for 10-year Treasury notes and bonds. Based on information provided by DOL and
the Department of the Treasury, OTS estimates that its FECA liability was $4.0 million and $4.5 million as of
September 30, 2005 and September 30, 2004, respectively. Actual FECA expenses currently payable are included
in other accrued liabilities and totaled $694 thousand and $735 thousand as of September 30, 2005 and September
30, 2004, respectively. Changes in the actuarial liability and payments related to FECA are reflected as reductions
or increases in benefits expense in the appropriate year.




                                                       8

                          UNITED STATES DEPARTMENT OF THE TREASURY
                                 OFFICE OF THRIFT SUPERVISION

                                   NOTES TO FINANCIAL STATEMENTS



7. DEFERRED COMPENSATION LIABILITY

Under provisions of FIRREA, OTS assumed the Deferred Compensation Plans of the employees transferred from
the Federal Home Loan Banks of Dallas and San Francisco. These plans allowed employees to defer a portion of
their income and provided for employer matching contributions. OTS froze these plans and discontinued all plan
deferrals or employer matches effective January 1, 1991. Under the assumed plans, benefits were intended to be
provided by cash value life insurance policies issued by Mutual Benefit Life; Mutual Benefit Life went into
rehabilitation on July 16, 1991. OTS surrendered all but two of these policies in 1994 and retained the full cash
values on deposit with Mutual Benefit Life. Under the rehabilitation plan, withdrawal of cash values prior to
December 31, 1999, was restricted and subject to substantial withdrawal penalties. In 2003, OTS elected to receive
the cash values for surrendered policies and invest the funds with Treasury. The cash value of the one remaining
policy, included in other assets in the accompanying Statements of Financial Position, is approximately $11
thousand in 2005 and $8 thousand in 2004. Plan payments are funded by OTS.


8. POST-RETIREMENT BENEFIT LIABILITY

OTS sponsors a life insurance plan (the Plan) for all employees that meet eligibility requirements. The agency funds
benefit costs principally on a pay-as-you-go basis, with retiree contributions that are adjusted annually based on
certain factors, some of which are discretionary. The Plan is unfunded, with participants paying a portion of the
costs. As stated in the Significant Accounting Policies, OTS changed its accounting policy with respect to the Plan
as of January 1, 1993. OTS elected to defer recognition of the Plan’s transition obligation and amortize such
obligation over twenty (20) years on a straight-line basis.

A Memorandum of Understanding (MOU) was signed in December 1994 between OPM and OTS. The purpose of
the MOU was to implement legislation permitting annuitants who retired from OTS prior to January 1995, and who
were enrolled in the OTS health plan, to enroll in the Federal Employees Health Benefits Program (FEHB) for
coverage effective on or after January 8, 1995.

OTS agreed to pay a one-time fee to OPM of approximately $11.0 million in consideration of OPM assuming the
health portion of the post-retirement plan liability. In accordance with SFAS No. 106, the agreement with OPM
constitutes a settlement and, accordingly, OTS recognized a gain on the settlement of approximately $16.7 million
in 1994. Such gain includes the health portion of the transition obligation that OTS elected to initially recognize
over 20 years in 1993. The post-retirement liability of $14.5 million in the Statements of Financial Position at
September 30, 2005 and $13.5 million at September 30, 2004 represents OTS’s recognized portion of the remaining
liability for participants’ future life insurance benefits.




                                                       9

                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                     NOTES TO FINANCIAL STATEMENTS


8. POST-RETIREMENT BENEFIT LIABILITY (continued)

Net periodic post-retirement benefit cost for life insurance provisions under the Plan included the following
components in 2005 and 2004 (in thousands):

                                                                                     For the Years Ended
                                                                                        September 30
                                                                                     2005           2004

         Service cost - current year                                           $          220 $             206
         Interest on accumulated post-retirement benefit obligation                       993               918
         Amortization of transition obligation                                            253               253

         Net post-retirement benefit expense                                   $         1,466 $          1,377

         The following table sets forth the Plan’s funded status reconciled with the liability recognized in the
         Statements of Financial Position (in thousands):
                                                                                         September 30
                                                                                     2005              2004
         Accumulated post-retirement benefit obligation:
               Retirees                                                        $         9,147 $           8,446
               Other fully eligible participants                                             46            6,326
               Other active participants                                                 7,954             2,588
         Accumulated post-retirement benefit obligation                                 17,147           17,360

         Unrecognized transition obligation                                            (1,832)          (2,084)
         Unrecognized net gain or (loss)                                                 (862)          (1,741)

         Total post-retirement benefit liability                               $       14,453 $         13,535

The weighted average discount rates used in estimating the accumulated post-retirement benefit obligations at
September 30, 2005 and September 30, 2004 were 5.52 percent and 5.81 percent, respectively.


9. OTHER RETIREMENT PLAN LIABILITIES

OTS employees participate in three retirement systems. Two are administered by OPM. For funding purposes,
these two plans function as defined contribution plans; however, the retirement benefits accrue in a manner
consistent with a defined benefit plan. The third is a private defined benefit plan, the Financial Institutions
Retirement Fund (FIRF), administered by Pentegra Retirement Services (Pentegra).

The Civil Service Retirement System (CSRS) is two-tiered. For employees hired prior to January 1, 1984, OTS
withholds 7.0 percent of regular earnings. OTS also contributed 7.0 percent of regular earnings during 2005 and
2004 for each employee in this tier. The sum is transferred to the Civil Service Retirement Fund, from which this
employee group will receive retirement benefits. Employees do not contribute to, or receive benefits from, the
Social Security System.




                                                       10 

                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS


9. OTHER RETIREMENT PLAN LIABILITIES (continued)

For employees with more than five years of (not necessarily continuous) service, hired on or after January 1, 1984,
OTS withholds 0.8 percent of regular earnings, in addition to Social Security withholding. OTS also contributed
7.0 percent of regular earnings in 2005 and 2004, respectively, for each employee in this tier. When regular
earnings exceed the FICA maximum wages, employees covered under this tier of CSRS are required to have 7.0
percent of their earnings withheld. This employee group will receive retirement benefits from both CSRS and the
Social Security System.

Beginning in January 1987, all employees hired since January 1, 1984, either as new employees or having less than
five years of accumulated service (with a break in service over one year) are included in the Federal Employee
Retirement System (FERS). For these employees, OTS withheld 0.8 percent of regular earnings in 2005 and 2004.
The agency contributed 10.7 percent of regular earnings in 2005 and 2004 for FERS employees. This group of
employees will receive benefits from FERS as well as the Social Security System, to which they concurrently
contribute.

Pursuant to FIRREA, the Office of Regulatory Activities (ORA) and its twelve examination districts became part of
OTS. OTS assumed the cost of their retirement system, which is part of FIRF. OTS contributes a percentage of
total FIRF salary. The percentage varies from year to year. Employees do not contribute to FIRF but do contribute
to the Social Security System. Changes in percentages are based on the number and average age of active FIRF
employees, the number of people who have retired, the benefits paid out, and adjustments to the actuarial gain or
loss. The estimated FIRF plan contributions for the plan years beginning July 1, 2005 and July 1, 2004 consist of
two components: (1) Normal Cost and (2) amortization of the retirement plan’s Unfunded Accrued Liability (UAL)
for the plan year. The estimated UAL totaled $61.5 million and $53.6 million for the plan years beginning July 1,
2005 and July 1, 2004, respectively. The plan year UAL is amortized over approximately five years in
conformance with IRS Rules.

Prior to OTS’s fiscal year closing, OTS receives notice of the plan year minimum required contribution from the
FIRF plan administrator. OTS recognizes one-fourth of the required contribution in current fiscal year expense and
the remainder in the next fiscal year. For the fourth quarter of fiscal year 2004, OTS recognized $6.7 million of the
$21.1 million contribution as expense, and the $14.3 million remainder was recognized in fiscal 2005. The
minimum required contribution for the plan year begun July 1, 2005 is $27.3 million. Accordingly, OTS recognized
$6.8 million in expense for the fourth quarter of fiscal year 2005, and this amount is included in retirement plan
liabilities.

OTS funds a portion of CSRS and FERS pension benefits and collects the appropriate payroll withholdings. OTS
does not account for the assets of either government retirement plan, nor does it have actuarial data with respect to
accumulated plan benefits or the unfunded pension liability relative to its employees. These amounts are reported
by OPM for both government retirement systems and are not allocated to the individual agencies.

In addition to the retirement plans described above, OTS employees have the option of participating in retirement
savings plans. Employees covered under CSRS or FERS may participate in the OPM-sponsored Thrift Savings
Plan (TSP), a plan with characteristics similar to a private-sector 401(k) plan. CSRS and FERS covered employees
may also participate in the Financial Institutions Thrift Plan (FITP), a 401(k) plan administered by Pentegra.
Employees covered under FIRF may participate in FITP only. All employees may contribute up to 15 percent of
their earnings to the plans. OTS makes matching contributions of up to 7 percent to the plans for FERS and FIRF
participants and up to 2 percent for CSRS participants.




                                                        11 

                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS


9. OTHER RETIREMENT PLAN LIABILITIES (continued)

In 2004, OTS implemented a new Employee Savings Plan (ESP). The ESP is administered by Pentegra and has
characteristics similar to the FITP 401(k) plan described above, except all contributions are funded by OTS and
vesting begins in year four of participation in the plan. Participating employees are eligible to withdraw the vested
amount of their accounts upon terminating employment with OTS. For the plan year ended September 30, 2005,
OTS declared a distribution of $9.7 million to the ESP, which was offset by ESP prepayments totaling $1.2 million.
The ESP prepayments arose from two sources for the year ended September 30, 2005: (1) $442 thousand in non-
vested ESP amounts forfeited by departing employees and (2) $748 thousand in contributions which caused some
employees to exceed the Internal Revenue Code Section 415 limits. Forfeited funds are available to offset future
contributions for ESP participants. Excess contributions are removed from the employee’s ESP and are available to
offset future plan year contributions for that employee. OTS established a new nonqualified retirement savings plan
(NQRS) to cover the excess contribution amounts removed from employee accounts due to the IRS limits. The total
nonqualified plan liability of $768 thousand includes earnings at 2.7 percent for the year ended September 30, 2005.

The liabilities for all OTS plans, included in liabilities in the accompanying Statements of Financial Position, are as
follows (in thousands):

                                    For the Years Ended
                                       September 30
                                    2005           2004

         FIRF                  $       6,842 $         6,720
         ESP                           8,532               -
         NQRS                            768               -

               Total           $      16,142 $         6,720

The expenses for all OTS plans, included in benefits expense in the accompanying Statements of Operations and
Changes in Net Position, are as follows (in thousands):

                                    For the Years Ended
                                       September 30
                                    2005           2004

         CSRS                  $         922 $          918
         FERS                          2,878          2,393
         TSP                           1,180          1,050
         FITP                          4,508          4,375
         FIRF                         25,137         17,953
         ESP                           8,530         10,090
         NQRS                            768              -

               Total           $      43,923 $       36,779




                                                        12 

                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS



10. OTHER ACCRUED LIABILITIES

The following table summarizes the other accrued liabilities (in thousands):

                                                         September 30
                                                      2005          2004

         Post-employment benefits payable      $          694 $           740
         Relocation                                       312             741
         Goods and services                             2,157           2,786

             Total other accrued liabilities   $        3,163 $         4,267


11. NET POSITION

The land and building owned by the FHLBB were transferred to OTS under FIRREA. OTS also assumed all
furniture, fixtures and equipment previously owned by FHLBB. These assets were recorded at their existing book
values established in the FHLBB’s accounting records. Their value is reported as assumed capital in the Net
Position section of the comparative Statements of Financial Position. Assumed capital totaled $41.0 million as of
September 30, 2005 and 2004.

Beginning in fiscal year 2005, OTS set aside a portion of its retained earnings as contingency and special reserves.
The contingency reserve supports OTS’s ability to accomplish its mission in the case of foreseeable but rare events.
Foreseeable but rare events are beyond the control of OTS, such as a major change in the thrift industry. The
special reserve supplements revenue from assessments and other sources that are made available to fund OTS’s
annual budget. The special reserve reduces the effect on operations of unforecasted revenue shortfalls or
unbudgeted and unanticipated requirements or opportunities. Undelivered orders represents the amount of goods
and services ordered that have not been actually or constructively received and for which amounts have not been
prepaid or advanced.

The following table summarizes the components of the retained earnings (in thousands):

                                                   September 30
                                                       2005

         Contingency reserve                   $         95,120
         Special reserve                                 25,000
         Undelivered orders                               3,967

             Total retained earnings           $        124,087


12. RENTAL INCOME

OTS leases a portion of its building as office and retail space under noncancellable operating leases expiring at
various dates through 2014. Some of the leases provide renewal options. The leases provide for annual base rent
and additional rents for building operating expenses. Some leases provide for fixed future increases in rents over
the term of the lease.



                                                        13 

                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                     NOTES TO FINANCIAL STATEMENTS


12. RENTAL INCOME (continued)

The future minimum rentals to be received under noncancellable operating lease arrangements, not including
renewals, are as follows (in thousands):

         Years ending 

         September 30               Total


         2006                  $     4,343
         2007                        4,469
         2008                        4,590
         2009                          849
         2010                          377
         Thereafter                  2,982

                               $    17,610

Rental income totaled $5.1 million and $4.9 million for 2005 and 2004, respectively.


13. LEASE COMMITMENTS

OTS conducts most of its regional operations in leased facilities under noncancellable operating leases expiring at
various dates through 2020. Many of the leases contain a provision to renew at the end of the initial term for an
additional one to ten years. The rental payments are based on a minimum rental plus a proportional share of
building operating expenses and taxes.

Some of the operating leases provide for rental escalations or stated annual rental increases in the amount of base
rent over the lives of the leases. The accompanying comparative Statements of Operations and Changes in Net
Position reflect rent expense on a straight-line basis over the lives of the leases.

The minimum rental commitments under noncancellable operating leases are as follows (in thousands):

         Years ending 

         September 30                Total 


         2006                   $      3,579
         2007                          3,650
         2008                          3,175
         2009                          2,776
         2010                          2,667
         Thereafter                   11,840

                  Total         $     27,687

Rent expense under noncancellable operating leases totaled $4.4 million and $5.8 million for 2005 and 2004,
respectively.




                                                       14 

                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS


14. COMMITMENTS AND CONTINGENCIES

There are approximately thirty-five lawsuits pending against the United States in the Court of Federal Claims and
the Court of Appeals for the Federal Circuit, in connection with Congress’s elimination of the capital treatment of
supervisory goodwill or other intangible assets of certain thrift institutions. These cases arise from the enactment of
FIRREA. The U.S. Department of Justice (Department of Justice) is defending these cases on behalf of the United
States, and OTS is supporting the Department of Justice in its defense efforts. Under 28 U.S.C. § 2517, any
judgment issued by the Court of Federal Claims must be paid from appropriated funds. Therefore, OTS funds,
which are non-appropriated, cannot be used to pay judgments in these cases.

OTS is also supporting the Department of Justice in its defense of five “tax benefits” lawsuits pending against the
United States in the Court of Federal Claims. These cases concern Congress’s elimination of tax benefits that it
granted in connection with certain thrift acquisitions in the late 1980s. OTS funds cannot be used to pay judgments
in these cases because, as noted above, 28 U.S.C. § 2517 requires that any judgment issued by the Court of Federal
Claims must be paid from appropriated funds, and OTS funds are non-appropriated.

OTS is also defending or supporting the Department of Justice in defending two other lawsuits in which the
plaintiffs seek damages in excess of $100,000. In one of these cases, the claims against OTS have been dismissed;
the case is on appeal and OTS believes it is more likely than not that this dismissal will be affirmed on appeal. That
lawsuit also asserted claims against certain current and former OTS employees. All of those claims have been
dismissed, and those claims are also on appeal. An unfavorable outcome appears unlikely at this point, but if there
is a final judgment against one or more of the employees, OTS may be called upon to indemnify such employee(s)
under the agency’s indemnification policy, which provides for indemnification under certain specified conditions.
In the second case, OTS believes the likelihood of an unfavorable outcome is minimal or remote.




                                                        15 

Deva & Associates, P.C. 

                                                1901 Research Boulevard • Suite 410 • Rockville, MD 20850
                                                                     (301) 610-5600 • FAX (301) 610-9910




                      INDEPENDENT AUDITORS' REPORT ON 

                 INTERNAL CONTROL OVER FINANCIAL REPORTING



 To the Inspector General, 

 U.S. Department of the Treasury 


 We have audited the financial statements of the U.S. Department of the Treasury, Office of
 Thrift Supervision (OTS) as of and for the year ended September 30, 2005 and have issued our
 report thereon dated November 4, 2005. We conducted our audit in accordance with auditing
 standards generally accepted in the United States of America; the standards applicable to
 financial audits contained in Government Auditing Standards, issued by the Comptroller General
 of the United States; and applicable Office of Management and Budget (OMB) guidance for
 audits of federal financial statements.

 In planning and performing our audit, we considered OTS’ internal control over financial
 reporting in order to determine our auditing procedures for the purpose of expressing our opinion
 on the financial statements and not to provide assurance on the internal control over financial
 reporting. Consequently, we do not provide an opinion on internal control over financial
 reporting. Our consideration of the internal control over financial reporting would not
 necessarily disclose all matters in the internal control over financial reporting that might be
 material weaknesses under standards established by the American Institute of Certified Public
 Accountants. A material weakness is a condition in which the design or operation of one or
 more of the internal control components does not reduce to a relatively low level the risk that
 misstatements caused by error or fraud in amounts that would be material in relation to the
 financial statements being audited may occur and not be detected within a timely period by
 employees in the normal course of performing their assigned functions. However, we noted no
 matters involving the internal control over financial reporting and its operation that we consider
 to be material weaknesses as defined above.

 This report is intended solely for the information and use of the Inspector General of the U.S.
 Department of the Treasury, the management of OTS, OMB and Congress and is not intended to
 be and should not be used by anyone other than those specified parties. However, this report is
 available as matter of public record.




                                                 Certified Public Accountants
 November 4, 2005



                                                16 

Deva & Associates, P.C. 

                                               1901 Research Boulevard • Suite 410 • Rockville, MD 20850
                                                                    (301) 610-5600 • FAX (301) 610-9910



                INDEPENDENT AUDITORS' REPORT ON COMPLIANCE
                        WITH LAWS AND REGULATIONS



 To the Inspector General, 

 U.S. Department of the Treasury 


 We have audited the financial statements of the U.S. Department of the Treasury, Office of
 Thrift Supervision (OTS) as of and for the year ended September 30, 2005 and, and have issued
 our report thereon dated November 4, 2005. We conducted our audit in accordance with
 auditing standards generally accepted in the United States of America; the standards applicable
 to financial audits contained in Government Auditing Standards, issued by the Comptroller
 General of the United States; and applicable Office of Management and Budget (OMB) guidance
 for audits of federal financial statements. Those standards require that we plan and perform the
 audit to obtain reasonable assurance about whether the financial statements are free of material
 misstatement.

 As part of obtaining reasonable assurance about whether OTS’ financial statements are free of
 material misstatement, we performed tests of its compliance with certain provisions of applicable
 laws and regulations, noncompliance with which could have a direct material effect on the
 determination of financial statement amounts. However, providing an opinion on compliance
 with those provisions was not an objective of our audit, and accordingly, we do not express such
 an opinion. The results of our tests disclosed no instances of noncompliance that are required to
 be reported under Government Auditing Standards.

 This report is intended solely for the information and use of the Inspector General of the U.S.
 Department of the Treasury, the management of OTS, OMB and Congress and is not intended to
 be and should not be used by anyone other than those specified parties. However, this report is
 available as a matter of public record.




                                                Certified Public Accountants

 November 4, 2005




                                                17 

